U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

February 13, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Vahan Kelerchian v. United States, No. 19-782
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on November 20,
2019. The government’s response is now due, after one extension, on February 18, 2020. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including March 23, 2020, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Noel J. Francisco
Solicitor General
cc:

See Attached Service List

19-0782
KELERCHIAN, VAHAN
USA

KERRY C. CONNOR
ATTORNEY AT LAW
9013 INDIANAPOLIS BLVD.
SUITE C
HIGHLAND, IN 46321
219-972-7111
KCCONNOR@SBCGLOBAL.NET
J. MICHAEL KATZ
THE LAW OFFICES OF J. MICHAEL KATZ
9013 INDIANAPOLIS BLVD.
HIGHLAND, IN 46321
219-838-9200
JMK4LAW@AOL.COM

